No. 20-7291
IN THE
SUPREME COURT OF THE UNITED STATES
JOHN HARRIS, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
On Petition For Writ Of Certiorari
To The Appellate Court Of Illinois
REPLY BRIEF FOR PETITIONER

NOTICE AND PROOF OF SERVICE
Mr. Kwame Raoul, Attorney General, 100 W. Randolph St., 12th Floor, Chicago, IL
60601, aagKatherineDoersch@~mail.com;
Mr. Patrick D. Daly, Deputy Director, State's Attorneys Appellate Prosecutor, 730
East IL Hwy 15, Ste. 2, Mt. Vernon, IL 62864, 05dispos@ilsaap.or~;
Mr. James A. Gomric, St. Clair County State's Attorney, 10 Public Square,
Belleville, IL 62220, james.~omric@cost-clair.il.us;
Jane Elinor Notz, Solicitor General, 100 West Randolph Street, Chicago, Illinois
60601, jnotz@at~.state.il.us
Mr. John Harris, Register No. B90098, Western Illinois Correctional Center, 2500
Rt. 99, Mt. Sterling, IL 62353
The undersigned, a member of the Bar of this Court, in compliance with Rules
29 and 33.2, and to this Court's April 15, 2020 order, she electronically filed Reply
Brief for Petitioner and mailed on paper copy to the Clerk, Supreme Court of the
United States, Washington, DC 20543 on June 1, 2021. On that same date, the
undersigned served one copy of the same document on opposing counsel and on
petitioner by depositing them in the United States mail, postage prepaid and
addressed as above. An electronic version was also served by email to opposing counsel.
All parties required to be served have been served. ~
ELLE~URRY
COUNSEL FOR PETITIONER

